                      •

UNITED STATES DEPARTMENT OF AGRICULTURE

      OFFICE OF INSPECTOR GENERAL




    STATEMENT OF PHYLLIS K. FONG

         INSPECTOR GENERAL




                 Before the

      U.S. HOUSE OF REPRESENTATIVES
        COMMITTEE ON THE BUDGET

                   ON

         FRAUD, WASTE, AND ABUSE
    IN MANDATORY SPENDING PROGRAMS


                July 9, 2003
                         TESTIMONY OF PHYLLIS K. FONG

                             INSPECTOR GENERAL
                        OFFICE OF INSPECTOR GENERAL
                      U.S. DEPARTMENT OF AGRICULTURE

                                       Before the

                        U.S. HOUSE OF REPRESENTATIVES
                          COMMITTEE ON THE BUDGET

                                          ON

                           FRAUD, WASTE, AND ABUSE
                      IN MANDATORY SPENDING PROGRAMS

                                     JULY 9, 2003


Thank you, Mr. Chairman and members of the committee. I am pleased to be here to

provide testimony about the Office of Inspector General’s (OIG) perspective on fraud,

waste, and abuse in mandatory programs administered by the U.S. Department of

Agriculture (USDA).



BACKGROUND


USDA’s Office of Inspector General has over forty years of service within the

Department and as such has a long history of identifying fraud, waste and abuse in

USDA’s programs. Although our tools and techniques have changed over the years, our

purpose remains the same: to perform audits and investigations of the Department’s

more than 300 programs and operations, recommend policies and actions to promote

economy and efficiency, and prevent and detect fraud, waste, and abuse in




                                            1
these programs and operations. We have been actively involved in auditing and

investigating the major USDA mandatory programs: food assistance programs and farm

programs (including conservation) and crop insurance programs.        We take as our motto

and our purpose, “Ensuring the integrity of American Agriculture.” In forty years, we

have seen many changes in the Department’s programs, just as we have seen many

changes in the nature of the schemes and devices we encounter, and the program abuse

and mismanagement we find.



Improper Payments

Allow me to say from the outset that while OIG has a long history in identifying fraud,

waste, and abuse in USDA programs, quantifying the extent of these offenses is

extremely difficult. In the case of fraud in particular, people do not commit it with the

idea that it will be discovered. Consequently, a reliable estimate is difficult to obtain.

Both Congress and the Administration recognize the importance of reducing waste in

Government programs. As you know, one of the initiatives of the President’s

Management Agenda is to reduce erroneous (improper) payments. An erroneous

payment is any payment that should not have been made, or that was made in an incorrect

amount, to an ineligible recipient, or for an ineligible service. The 2002 Improper

Payments Information Act now requires agencies to identify programs vulnerable to

improper payments, estimate the extent of these erroneous payments, and develop a plan

to prevent such errors. This new requirement will be a significant management

challenge to Federal agencies, including USDA. Successful implementation will require

a strong internal control structure, to include management commitment and the necessary




                                              2
resources, quality control processes, and information systems to prevent, detect, and

measure the extent of erroneous payments. Ultimately, the goal will be to design internal

control systems to detect and prevent improper payments before they “go out the door.”



Within USDA, the only agency that currently has a statistically based quality control

program in place to measure the extent of improper payments is the Food and Nutrition

Service (FNS). This program measures both over- and under-payments of Food Stamp

Program benefits by State administering agencies, albeit “after the fact.” A key

component of FNS’ program is to provide a system of incentives and penalties to

encourage State administering agencies to lower their error rates and ensure that eligible

individuals receive the proper amount of program benefits. OIG recognizes the

importance of preventing improper payments and has recently initiated a review to assess

the progress of select agencies in implementing this new mandated requirement.


Over the past several years, OIG has been requested to identify the top management

challenges facing the Department. Among other things, we considered OIG’s experience

in finding fraud, waste, and abuse in the program and the nature of the program that

might make it vulnerable to fraud, waste or abuse. USDA has about 70 mandatory

spending programs (see Exhibit A). For FY 2003, these mandatory programs amounted

to approximately $67.8 billion, or 64 percent of the USDA’s total estimated program

dollar level. Today, we will focus our testimony on those programs that comprise a

significant portion of USDA’s program levels, in both dollars and participants, and that

contain OIG-identified management challenges for USDA. The programs I will address

are the major food assistance programs (Food Stamp and National School Lunch and



                                             3
Breakfast Programs); farm programs (including conservation); and crop insurance

programs. Between fiscal years (FY) 1996 and 2002, OIG conducted 509 audits and

3,492 investigations in these programs; our audits identified about $751 million in

questioned costs and $466 million in potential program savings in these programs, and

our investigations resulted in over $497 million in monetary results.



FOOD ASSISTANCE PROGRAMS

FNS administers the food assistance programs of USDA. These programs include the

Food Stamp Program, the National School Lunch and School Breakfast Programs, among

others. The program goals are to provide access to a more nutritious diet for people with

low incomes, to encourage better eating habits among the nation's children, and to

stabilize farm prices by distributing surplus foods.



Food Stamp Program

The Food Stamp Program is the Nation’s principal nutrition assistance program. FNS

administers the program in cooperation with State agencies. Households apply for

benefits at State or local welfare offices. Those offices certify the households’ eligibility

to participate and issue the benefits. Eligibility is generally based on the household’s

level of income and other resources of the applicant, including bank accounts and real

estate. In FY 2002 just over $18 billion in food stamps was issued to an average

8.2 million households. FNS funds the entire cost of program benefits and shares in the

State agencies’ administrative costs. The program provides monthly program allotments

to households in the form of paper coupons or in the form of electronic benefits transfer




                                              4
(EBT) systems cards, which function much like bank debit cards. Food stamp benefits

provided via coupons and EBT cards can be redeemed at authorized retailers. FNS began

pilot implementation of EBT to provide food stamp benefits in 1984. The Personal

Responsibility and Work Opportunity Reconciliation Act of 1996 (Welfare Reform)

mandated all States to implement EBT for food stamps by October 2002. As of July

2003, FNS reported 52 of 53 State Agencies have operational systems with 48 being

operational State- or district-wide. FNS now estimates that about 91 percent of

participating households receive food stamp benefits through EBT systems, which is

about 91 percent of the total issuances.



Retailers apply to FNS for authorization to accept food stamps at their establishments,

including supermarkets, corner grocery stores, convenience stores, and farmers’ markets.

To qualify for authorization, a retailer must stock an ample variety of staple foods

including breads, dairy products, fruits and vegetables, and meats.



Retailer Abuses

Fraud and abuse in the Food Stamp Program generally occurs when individuals sell their

benefits for cash in violation of the intent of the Program as well as the law. This

practice, known as trafficking, diverts food stamps away from their purpose. Curbing the

incidence of trafficking by retailers and individuals remains an area of significant mutual

concern for FNS and OIG. FNS’ latest estimate for trafficking was published in March

2000 (FNS is planning to issue a revised estimate this summer). The report used data

from FNS investigations of authorized retailers and disclosed that stores trafficked over




                                             5
$650 million each year during the period 1996 through 1998. This amounted to 3 ½ cents

of every food stamp dollar issued. The advent of EBT has not prevented fraud from

occurring; the scheme of trafficking has not changed yet the method has. Specifically,

trafficking of food stamp benefits has moved from the street to the stores. Our

investigations now focus almost solely on the retailers because they are the only ones

who can redeem food benefits for cash from the government using paper coupons or

households’ EBT cards. EBT systems do, however, provide an electronic record of

transactions and make it easier to identify stores that may be trafficking. The systems

also identify the households whose benefits were trafficked, something that was not

possible under the coupon system.



Since the FNS-authorized retailer is the key to redemption of program benefits, OIG has

been concerned about the legitimacy and eligibility of these authorized retailers. We

have testified in the past about our work in this area and the need for agency on-site

reviews to determine if a retailer should be authorized or remain eligible for

reauthorization. In 1995, we performed a review of retailer eligibility entitled “Food

Stamp Program, Store Eligibility Task Force.” At that time, we visited over 5,000

authorized retailers and identified over 850 stores that were obviously not eligible to

participate and another 450 stores whose eligibility was questionable. These stores had

minimal or no staple foods, were out of business, or did not exist. FNS had not routinely

conducted onsite preauthorization visits and had accepted the information provided on

the store’s application without verification. While FNS could require stores to be

periodically reauthorized, site visits were not a requirement of the reauthorization




                                             6
process. We recommended that routine onsite visits be incorporated into both the

application and reauthorization processes. In response to OIG’s concerns, FNS

contracted with outside vendors to make the visits and provide FNS with specific

information to be used in the authorization and reauthorization process. The contractors

were required to complete a checklist of food inventory and take representative

photographs of each retailer’s operation. We have reviewed this system and concluded

that it is working. At the time of our initial review of retailer eligibility in 1995, there

were about 208,000 authorized retailers. At the end of FY 2002, with increased onsite

monitoring resulting in better information and more critical assessments, that number has

now been reduced to 146,000. This being said, our ongoing investigations indicate FNS

must remain vigilant in identifying and addressing problem retailers.



As previously mentioned, EBT systems provide an electronic record of individual

transactions. Because FNS has a reliable quality control system in place to detect

erroneous payments due to errors in determining recipient eligibility, OIG audits over the

past five years have been directed to evaluating State and EBT processor controls to

ensure that EBT systems can accurately and reliably issue, account for, and report Food

Stamp Program data. Our audits have shown that these EBT systems are working.

Analyses of EBT data have proven invaluable in targeting retailers whose activities are

questionable. With the majority of food stamp benefits now being issued through EBT

systems, the focus needs to remain on using this data to better target problem retailers and

refining analyses as problem retailers change their techniques to avoid detection.




                                               7
In fact, we focus our investigative efforts on retailer trafficking in an attempt to stem both

the retailer’s illegal gains and the recipient’s illegal use of food stamp benefits. For the

period FYs 1996 through 2002, we have conducted 2,540 food stamp related

investigations. Of the investigations, 2,238 were retailer related, and of those, 491

involved trafficking with EBT benefits. Our food stamp related investigations for the

past 7 years have resulted in 2,969 indictments, 2,740 convictions, and over $264 million

in monetary results.



One example of our investigative work involved a joint investigation with the Internal

Revenue Service of four food stores owned by family members in the Fort Worth, Texas

area. We found that from the period December 1996 through April 1999, the defendants’

efforts in a food stamp trafficking scheme resulted in government losses exceeding

$1.3 million. Part of the scheme involved trafficking food stamps through one authorized

retail store via manual transaction over the telephone of another store. The owner of one

store would call the owner of a second store and provide him with an EBT card number

and associated PIN. The owner at the second location would enter the information into

the point of sale (POS) device to complete the transaction. POS devices are terminals

used to transact EBT benefits. Through our efforts five family members and several

other store employees were convicted and received sentences ranging from 8 to 46

months in prison. They were charged with violations of food stamp EBT trafficking and

conspiracy. These individuals were also ordered to pay over $1.3 million in restitution

for the Government’s losses.




                                              8
We have recently identified a fraudulent scheme that while rare, appears to be growing in

the Food Stamp Program. We noticed that authorized retailers are moving their POS

devices to an unauthorized location, such as an unauthorized store or apartment, for

trafficking purposes. We learned through investigation that unauthorized stores take

possession of EBT POS devices, which are then used to conduct fraudulent transactions.

Additionally, we found that stores work in concert with other unauthorized stores to

further the scheme. We have met with FNS on this issue, and are working together to

consider ways to prevent this activity from occurring. Factors such as cost, however,

have been identified as potential impediments to some solutions.



The nature of the food stamp program and the large amount of money that it provides to

recipients creates the potential for laundered monies to be transferred overseas, where it

is not always possible to track how the funds are used. We have noticed trends in our

food stamp trafficking investigations where such activity occurs. In fact, the elements of

money laundering and overseas transfers led to our participation in the Federal Joint

Terrorism Task Force (JTTF) and Operation Green Quest, which is a national project to

target money transfer businesses sending funds overseas to terrorist groups.



In one such investigation we uncovered a network of grocery stores, a wholesale

distributing company and a video store, all owned by the same individuals that purchased

food stamps and other program benefits for cash. The primary source of the trafficking

occurred at the video store, which was located a few storefronts away from a food stamp

issuance center. The video store would receive cash from one of the grocery stores,




                                             9
owned by the defendants, and use it to purchase food stamps and other program benefits.

The video store would then provide the illegally obtained food stamps and other program

benefits to the grocery store, which in turn redeemed the stamps or provided them to

another authorized grocery store for redemption. Due to the large volume of food stamps

and other program benefits, which needed to be redeemed, many authorized grocery

stores were involved in the network, so that the fraud would go undetected. Through this

investigation we discovered that approximately $1 million was transferred overseas. Two

of the owners who pled guilty to food stamp fraud have fled the country and remain in a

fugitive status. Additionally, the courts have entered a judgment against the storeowners

in an amount exceeding $71 million.



We currently have active investigations with most of the 44 local JTTFs, and have an

OIG representative serving on the National JTTF.



FNS has the ability to take administrative action against authorized retailers using its own

analysis of EBT data. FNS may also conduct retailer compliance investigations and take

administrative action against retailers who violate the food stamp regulations. Such

administrative actions include temporarily or permanently disqualifying retailers and

their owners from participating in the program. In those instances when an FNS

compliance investigation uncovers a retailer trafficking in food stamps, FNS promptly

notifies OIG concerning the potential for a criminal investigation. Since FY 1996, OIG

has opened 1,159 food stamp trafficking investigations based on FNS referrals.




                                            10
An excellent example of an OIG investigation based on an FNS Compliance referral

involves a matter in Philadelphia. Through a joint investigation with FNS Compliance

and the U.S. Secret Service, we found that over an 18-month period, the two owners of an

authorized store fraudulently redeemed $1.3 million in food stamp EBT benefits. Both

owners were convicted of fraud. One was sentenced to 9 months incarceration, 3 years

probation, and ordered to pay $1.3 million in restitution. The other was sentenced to 6

months home detention, 5 years probation, and ordered to pay $1.3 million in restitution.

Additionally, one of the owners agreed to cooperate and testify against the food stamp

recipients who sold him their food stamp benefits. Thus far, the owner has identified

about 3,000 recipients; over 2,000 of them have been notified that they will be removed

from the food stamp rolls. The State of Pennsylvania has also indicted over 120

recipients in this matter.



Improper Payments

Eligibility for the Food Stamp Program is generally based on household income and other

resources of the applicant, including bank accounts and real estate. Certain deductions

are allowed from a household’s gross income including dependent care, shelter, medical,

and child support payments. Applicants must provide proof of income to become eligible

to participate. Since 1974, FNS has measured payment accuracy using a statistical

sampling system called the Quality Control (QC) system. Each State conducts monthly

reviews of a statistical sample of households to measure payment accuracy

(overpayments and underpayments) and the correctness of decisions to deny benefits.

Between FYs 1993 and 2001, the national annual error rates have fluctuated between




                                           11
10.81 percent and 8.66 percent, which include both over- and underpayments. For FY

2001, the total erroneous payments were about $1.3 billion, with about $1 billion in

overissuances and about $340 million in underissuances. Total issuances for FY 2001

were about $15.5 billion. OIG considers the significance of these errors to be material to

the Food Stamp Program.



FNS’ analyses of the error rates for FY 2000 (the latest year published) shows that

54 percent of the dollar errors were attributed to the certifying agency, while about

46 percent were attributed to the households. The single biggest factor is determining or

reporting income, which makes up almost 52 percent of the errors. This is followed by

deductions from the household’s gross income, which makes up about 28 percent of the

errors.



Our investigations have found that some recipients deliberately misrepresent their

financial status, household income and composition, to obtain program benefits. Through

this misreporting of information, individuals are certified as qualifying for food stamp

benefits when, in fact, they do not. In a recent investigation worked jointly with the FBI,

Immigration and Naturalization Service, Secret Service, Bureau of Alcohol, Tobacco, and

Firearms, and two other Federal OIG offices, we found that an individual’s personal

finances and assets were inconsistent with those claimed on his food stamp and welfare

applications. The investigation revealed that the individual provided false information in

order to obtain credit cards, social security numbers, and alien registration documents.

The individual was found guilty on several counts, including unlawful acquisition of food




                                            12
stamp benefits. He was sentenced to 30 months in prison and ordered to pay restitution

in the amount of $41,805.



We note that the Food Stamp Reauthorization Act of 2002 contains provisions to simplify

the definitions of income, utility allowances, housing costs, resources, and determining

deductions. These provisions of the Act became effective October 1, 2002 and FNS

plans to publish regulations to implement the Act as soon as possible. While one would

expect these provisions to result in fewer certification errors, the determining factor will

be how well FNS and the States implement the provisions and then make any adjustments

based on QC results. The QC results will not be available until FY 2004 data are tested.



At the time of OIG’s audit in 1997, entitled “Reinvestment of Food Stamp Penalties,” it

was thought that the high error rates were attributable to large increases in participation

without a corresponding increase in State certification personnel. However, between

1995 and 2001 there was a significant decline in the number of participating households

and a 34 percent decrease in program outlays. Yet the error rate for the same period only

declined by 11 percent, which indicates that error rates are not directly linked to

participation levels.



Reducing the error rate, and thus the corresponding program losses, needs to remain an

area of focus for FNS. This emphasis is supported by the Under Secretary for Food,

Nutrition and Consumer Services, who noted in his FY 2003 budget hearings that the

Department’s focus will be to deal with States with the most serious problems and




                                             13
consistently high error rates. In line with the Under Secretary's statement, the

Department has recently fined California, Michigan, and Wisconsin, the three States with

the highest error rates for 2002.



The current law imposes QC liabilities each year a State’s payment error rate is above the

national average. Recent legislation (Farm Bill) made substantial changes to FNS’

quality control system. Effective for FY 2003, the reforms raise this threshold so that

States are not penalized unless there is a 95 percent probability that their error rate

exceeds 105 percent of the national average for two consecutive years. The law also

contains various provisions for waiving penalties and provides bonuses for high

performance. The impact of these changes on the payment accuracy rates and FNS’

ability to encourage corrective actions by State administering agencies may not be known

until FY 2005. We plan to monitor the implementation of these program changes.



Fugitive Felons Made Ineligible to Receive Food Stamp Program Benefits

In 1996, Congress passed the Personal Responsibility and Work Opportunity

Reconciliation Act of 1996, generally known as the Welfare Reform Act. In the Act,

Congress recognized that certain people are not eligible for food stamps. The Act made

felony fugitives ineligible to receive food stamp benefits. Additionally, this law allows

the matching of law enforcement felony fugitive files with social service agencies’ food

stamp recipient records. To implement the law, OIG created “Operation Talon.” This

initiative capitalized on the provision of the Act that declared individuals ineligible to

receive Food Stamp Program benefits who are “…fleeing to avoid prosecution, custody,




                                              14
or confinement after conviction.” The provision also authorized State agencies to

provide the addresses of food stamp recipients to any Federal, State, or local law

enforcement officer for official purposes. Operation Talon was commenced in

conjunction with other law enforcement agencies across the United States to locate and

apprehend fugitives who may be illegally receiving food stamp benefits. It was designed

to carry out the intent of Congress by:



   •   removing ineligible fugitive felons from Food Stamp Progam rolls, thereby

       reducing program outlays;

   •   removing fugitive felons from the streets in order to make our communities safer;

       and

   •   demonstrating to States how to carry out the statutory provisions on a continuing

       basis.



Since its inception in early 1997, Operation Talon has resulted in 8,793 arrests. Serious

crimes perpetrated by those arrested include homicide-related offenses, such as murder

attempted murder, and manslaughter; sex offenses, such as child molestation, rape, and

attempted rape; kidnapping/abduction; assault; robbery; and drugs/narcotics violations.

An example of an Operation Talon arrest involved an individual wanted for murder in

Southern New Jersey. The individual and two others were alleged to have executed a

victim as part of a cocaine distribution conspiracy. OIG agents and detectives from the

New Jersey State Police, the New York State Police, and the New York City Police

Department, apprehended the individual in the Bronx, which was at the address he




                                            15
reported in his food stamp application.



As successful as this initiative is, I unfortunately cannot provide the cost savings brought

about by these operations. Since the States determine eligibility, they are the ones who

are best positioned to make such determinations. For example, New Jersey has

developed a formula for estimating costs avoided. To date, New Jersey estimates cost

avoidance (program benefits now available for eligible recipients) of $1.9 million since

the inception of Talon in 1996. It is difficult, however, for most States to determine cost

savings because even though fugitives are removed from the food stamp eligibility roles,

they may be only one member in an entire household that continues to be eligible.



National School Lunch and School Breakfast Programs

The National School Lunch and School Breakfast Programs are administered by FNS

through State educational agencies. The programs are designed to provide children with

access to nutritious meals away from home and to improve their diets. Schools are

eligible for reimbursement from FNS for all meals served that meet program

requirements, with meals served free or at a reduced-price receiving additional

reimbursement. For FY 2003, FNS estimates that National School Lunch Program

outlays will be about $5.8 billion with the School Breakfast Program approaching

$1.7 billion. Both programs share common eligibility requirements for free and reduced-

price meals. In FY 2002, almost 58 percent of the National School Lunch meals were

served free or at a reduced-price, with the School Breakfast Program serving almost

83 percent of its meals as free or reduced-price. Eligibility for free and reduced-price




                                            16
meals is based on household income with households submitting applications at the

beginning of the school year to their local school food authority. To test whether

households correctly report their income, school food authorities are required to sample

applications to verify the reported income.



In August 1997, OIG issued a report entitled “National School Lunch Program

Verification of Applications in Illinois.” We reported that while school food authorities

generally followed regulations in conducting income verifications, they did not expand

their sampling when high error rates were found. Overall, Illinois had a 19 percent error

rate comprised of households underreporting income (about 9 percent) or failing to

respond to verification requests (about 10 percent). This meant that $31.2 million, of the

$165.1 million Illinois received in 1 year for free and reduced-price meals, was

potentially paid out for households that were not eligible. As part of the verification

process, school food authorities are required to reduce or terminate benefits when the

verification does not confirm the accuracy of the child’s eligibility. OIG recommended

that FNS establish a threshold for the maximum percentage of errors allowable during the

verification process and require additional sampling when that percentage is exceeded.

OIG further recommended that States be required to monitor school food authority

verification efforts and follow-up to assure additional testing was undertaken where

needed. FNS did not initially agree to make regulatory changes based only on our

findings in Illinois, but subsequently revised this position when information it gathered

on additional States showed an average error rate of 26 percent.




                                              17
OIG’s review, “National School Lunch Program Operations in New York City,” issued in

September 2002, further confirmed the severity of the problem. For school year

1998/1999, in which New York City received $204 million in FNS reimbursement, the

school food authority’s testing of households’ applications showed about 55 percent of

those sampled underreported income (about 23 percent) or did not respond to verification

requests (about 32 percent), with the error rate climbing to 59.5 percent in school year

1999/2000, 65.1 percent in school year 2000/2001, and 69.5 percent in 2001/2002.

Furthermore, the New York City school food authority did not always adjust its claims

for reimbursement based on the verification results, as required.



The Department has acknowledged that eligibility determinations and verification in the

National School Lunch and School Breakfast Programs is an issue that needs to be

addressed for program integrity. The Under Secretary for Food, Nutrition and Consumer

Services noted in his testimony before the House Appropriations Subcommittee on

Agriculture, Rural Development, Food and Drug, and Related Agencies in March 2002,

that the recent U.S. Census shows 27 percent more students are certified for free or

reduced-price meals than the Census data itself would suggest are eligible. Since

National School Lunch and School Breakfast Program reimbursements are estimated to

reach $7.5 billion during FY 2003, in response to these concerns, FNS has published a

proposed rule requiring schools to report on the results of their verification reviews to the

State agency. In turn, State agencies would consolidate the data and report to FNS. FNS

also currently has pilot projects underway in 22 school food authorities in 16 States to

assess three different options to address the verification process and the current high error




                                             18
rate. The first option requires households that are not eligible for free meals, by virtue of

being eligible for Food Stamp Program or Temporary Assistance for Needy Family

benefits, to provide upfront documentation of household income with their application.

The second option requires school food authorities to expand verification sampling if the

initial tests showed an error rate exceeding 25 percent. The third option requires school

food authorities to verify direct certifications, namely those who reported receiving Food

Stamp Program or Temporary Assistance for Needy Families benefits. The pilots are to

be completed at the end of school year 2002/2003.



FNS and OIG both agree that the eligibility determination and verification process is a

management challenge that must be addressed to reduce fraud, waste, and abuse in FNS

programs. The Under Secretary for Food, Nutrition and Consumer Services noted in his

testimony before the Senate Committee on Agriculture, Nutrition and Forestry in April

2003 that problems with school meals certification have worsened over time and that the

Department has been working to develop and test policy changes that improve accuracy

but do not deter eligible children from participation in the programs. Options being

pursued by the Department include requiring direct certification for free meals through

the Food Stamp Program, enhancing verification of applications by drawing samples

early in the school year and expanding the verification sample, requiring a robust effort to

follow up with those who do not respond to verification requests, streamlining the

process by requiring a single application, and initiating a series of projects to test

alternatives for certifying and verifying applicant information (including computer

matching of wage data).




                                              19
Another area in the National School Lunch and Breakfast Programs prone to fraud,

waste, or abuse involves local school food authority contracts with food service

providers. OIG is working with FNS to address cost reductions in the form of contract

discounts, rebates, and allowances. Federal cost principals require that such benefits

accrue to the program. However, the Office of Management and Budget has recently

determined that Federal cost principles do not apply to local contracts with food service

management companies. FNS is pursuing regulatory action to address this problem. Our

investigations have also identified schemes by food service providers to inflate expense

claims. One large food service provider agreed to pay $325,000, in order to settle a

lawsuit brought in regards to inflated National School Lunch Program claims. In its

billings to several school districts, this firm inflated flat rate labor costs for employee-

related expenses and claimed for insurance expenses that had not been incurred.



CROP INSURANCE AND FARM PROGRAMS


We believe the Department confronts the same challenges in administering these two

program areas, since they are closely related, interdependent, and prone to the same types

of abuse. When Congress enacted the Agricultural Risk Protection Act of 2000 (ARPA),

it mandated the Risk Management Agency (RMA) and Farm Service Agency (FSA) to

work together to strengthen their programs and to better serve American farmers and

ranchers.




                                              20
Federal crop insurance programs are delivered through private insurance companies

under the oversight of the Federal Crop Insurance Corporation and RMA. Today’s crop

insurance programs help farmers survive depressed market prices and major crop losses

through market-based risk management solutions. At the same time, the farm programs

administered by FSA serve to stabilize farm income, help farmers conserve land and

water resources, provide credit to new or disadvantaged farmers and ranchers, and help

farm operations recover from the effects of disaster. For the five FYs 1998 through 2002,

the average value of all financial assistance provided to the public by RMA, FSA, and

NRCS (actual program levels) were $2.432 billion, $32.073 billion, and $1.426 billion

respectively. Over those 5 years, RMA’s, FSA’s, and NRCS’ combined program levels

ranged from 28 to 45 percent of USDA’s annual budget.



While OIG has observed the general nature of fraud, waste, and abuse in crop insurance

and farm programs, the overall magnitude of these problems is unknown. Fraud is

commonly perpetrated through false certification of one or more of the basic data

elements essential for determining program eligibility and amounts of benefits. In RMA

cases, the scheme typically involves a conspiracy between an insurance company

representative and a producer. For example, in one investigation it was determined that a

producer who was also employed as an insurance agent paid employees of his insurance

company to assist him in setting up sham farming operations. These sham operations

enabled the individual to receive over $5.9 million in ineligible payments from FSA and

RMA. The individual was also able to use the sham operations to offset his sizable

insurance profits and file false income tax returns.   This individual was convicted on




                                             21
money laundering, conspiracy, false statements, aiding and abetting, false tax returns,

mail fraud, and wire fraud. The individual was sentenced to 60 months incarceration, 3

years supervised release, $1,800 special assessment, $13,800 towards cost of prosecution,

and forfeiture of $5.8 million.



Abuse is more subjective and occurs when a participant’s actions defeat the intent of the

program although no law, regulation, or contract provision is actually violated. Waste,

on the other hand, occurs when there are flaws in the program design. These program

design flaws or weaknesses inevitably invite abuse by the program participants – what we

refer to as “moral hazards.” For example, our September 2002 audit report, “RMA

Viability of Fall Watermelons in Texas and Their Inclusion in the 1999 Watermelon

Insurance Pilot Program,” showed RMA’s internal policy approval process was not

adequate to preclude the issuance of a crop insurance policy on crops that were not

viable. Specifically, RMA offered a policy covering fall watermelon crops in South

Texas although such crops ran a high risk of failure. This pilot program presented

producers with a significant opportunity for monetary gain since the crop insurance

indemnities substantially exceeded the producers’ input costs. In response to the policy

offering, producers significantly increased their acreage devoted to fall watermelons. In

South Texas alone, annual fall watermelon acreage jumped from its pre-1999 level of

about 1,000 acres to nearly 27,000 acres for 1999. The fall watermelon pilot program in

Texas culminated in the expenditure of $21.2 million in insurance indemnities

(44 percent of all watermelon claims nationwide in 1999). RMA discontinued the

program effective for the 2000 crop year, and we observed a corresponding decrease in




                                            22
fall watermelon acreage for that year. In this case, we found that RMA had adequate

procedures in place for reviewing and approving pilot programs, however, these

procedures were not closely followed. We recommended that the RMA consider holding

the responsible officials accountable for their actions. We are still waiting for a response

from RMA.



Actions Taken to Eliminate or Reduce Problems

The crop insurance and farm programs use the same basic data to compute program

benefits. Such data include acreage, crop, location, production, and shares, all of which

are generally self-certified by the program participants. The insurance companies and

FSA, however, separately collect the data from producers in different formats. OIG

believes common data should be shared between the agencies and programs, as well as

the responsibility to ensure the integrity of the data.



Agricultural Risk Protection Act of 2000 (ARPA)

Fundamental differences in FSA and RMA definitions and program procedures

sometimes give the appearance there are discrepancies in the data. For example, RMA

and FSA have different definitions for common pieces of land: RMA identifies land by

“units,” while FSA “farms” are composed of “tracts” which may further be broken into

individual “fields.” RMA units cannot be directly equated to FSA farms, tracts, or fields.



ARPA requires RMA and FSA to annually reconcile information received from

producers and to identify and address any apparent discrepancies. To further improve




                                              23
program compliance and integrity, ARPA requires FSA to assist RMA in ongoing

monitoring of crop insurance programs and requires RMA to consult with state FSA

committees on policies and plans for insurance offered in the state. In addition, ARPA

requires RMA to make full use of data warehousing and data mining technologies to

identify anomalies in the crop insurance programs.



OIG reviewed the 2001 crop year data reconciliation process and found that FSA was

able to resolve about 250,000 (52 percent) of the 480,000 data records unmatched

between RMA and FSA. We believe significant additional action is still needed by RMA

to resolve the remaining discrepancies. Most of the discrepancies can be attributed to

differences in RMA’s and FSA’s definitions of the basic data necessary to compute

benefits and in how they collect and record such data. Until these differences are

resolved, we believe neither of these agencies will be able to effectively and efficiently

implement the data reconciliation process and, therefore, meet its intended goal of

reducing improper payments. We plan to issue our audit report, “USDA Implementation

of the Agricultural Risk Protection Act of 2000,” in September 2003. In FY 2004, we

plan to continue monitoring the agencies’ implementation of ARPA. Our planned work

includes emphasis on RMA’s use of information provided through data mining.



During the past 7 fiscal years, we conducted 655 investigations related to FSA mandatory

programs, involving unauthorized disposition of property mortgaged to the government,

fraud by warehouse operators, false statements by commodities producers and exporters,

and false statements by borrowers in order to obtain more or greater dollar value loans or




                                             24
debt write-downs to those which they are actually entitled. These investigations have

resulted in 310 indictments, 306 convictions and $116.1 million in monetary results. For

this same period we conducted 154 investigations related to RMA mandatory programs,

which have resulted in 49 indictments, 43 convictions, and $22 million in monetary

results. We believe a more effective data reconciliation and data mining process could

detect potentially fraudulent actions and/or abuse by program participants and, thereby,

mutually benefit both RMA and FSA.



Existing Quality Control Systems

Because the crop insurance and farm programs fundamentally rely upon producers’ self-

certifications to determine eligibility for benefits, the agencies have in place a number of

differing internal control systems to evaluate participant compliance with program

provisions. For example, there exists within each FSA program specific compliance or

spot check requirements. FSA regards such compliance reviews as collateral duties to be

performed by FSA county office employees. FSA also has in place a County Operations

Review Program (CORP). CORP was implemented in 1986, based upon an OIG audit

that determined existing internal control processes did not meet the requirements of the

Federal Managers’ Financial Integrity Act (FMFIA) or the internal control guidelines

established by the Office of Management and Budget (OMB). For FY 2002, there were

74 county operations reviewers (COR) positions approved nationwide for FSA. The

COR position is a full-time position used exclusively for county office internal control

functions.




                                             25
The current internal review systems were developed independently of each other in

response to known problems and without consideration of whether the reviews would be

cost effective or the extent of the problems measurable. In addition, there has been no

concerted effort to coordinate the conduct of the multiple reviews or to communicate the

results to officials responsible for other programs that may be affected.



To evaluate overall program integrity and compliance, RMA uses a system that consists

largely of insurance company internal reviews and periodic RMA verifications. Given its

resources, RMA must continue to rely on this approach in partnership with the insurance

companies. In our March 2002 audit report, “Risk Management Agency Monitoring of

RMA’s Implementation of Manual 14 Reviews/Quality Control Review System,” we

reported RMA continues to struggle to develop and implement a reliable QC system

capable of evaluating private sector delivery of Federal crop insurance programs. RMA’s

stated commitment to QC has not answered basic policy questions, including what

constitutes an error, the amount of improper payments made, and whether program

delivery should be assessed at the national or at the insurance company level. We

continue to monitor RMA’s actions to implement our recommendations.



In general, RMA’s and FSA’s QC systems rely on judgmental sampling and are not

designed to estimate the magnitude of fraud, waste, and abuse in the programs.

Statistical sampling is the only reasonable way to review large populations in an

objective and unbiased manner. Statistical sampling is objective and defensible; it

provides the means to estimate the sample size and sample error; it saves time and




                                             26
money; it has a proven scientific basis; and it generally yields results that have high

visibility and impact. We are aware of only one RMA internal review designed to use a

statistical sample. We believe the agencies must move toward standardized statistical

sampling in order to estimate annual amounts of improper payments as required by the

Improper Payments Information Act of 2002.



The Department’s conservation programs fall under the jurisdiction of FSA or the Natural

Resources Conservation Service (NRCS). In some of these programs, such as the

Conservation Reserve Program, FSA administers the program and NRCS provides

technical assistance to the farmers. In other programs, such as the Wetlands Reserve

Program, NRCS both administers the program and provides the technical assistance. For

most programs, NRCS is responsible for monitoring the farmers’ implementation of the

conservation practices they agreed to. Farmers need to comply with the conservation

provisions of their agreements with FSA or NRCS to remain eligible for farm program

benefits. NRCS monitors this compliance through status reviews. The tracts it selects for

these reviews are taken partly from a random sample and partly from referrals it gets

from FSA, its own field offices, public complainants, or other sources. If NRCS finds

that a farmer did not comply with the appropriate agreements, it may waive the

noncompliance, recommend penalties, or ask FSA to withhold farm program benefits. In

the past, NRCS has reported generally around a 98-percent rate of farmers’ compliance

with the conservation provisions.


We recently evaluated the performance of the status reviews (that is, compliance reviews)

in one State in response to a whistleblower complaint. In our September 2002 report,



                                             27
“NRCS – Compliance With Highly Erodible Land Provisions,” we pointed out a number

of ways NRCS could strengthen its status reviews: clarify its handbook procedures, seek

better coordination with FSA, perform more timely status review field visits, and require

better reporting by the field offices of the results of the status reviews. The General

Accounting Office’s recently issued report, “USDA Needs to Better Ensure Protection of

Highly Erodible Cropland and Wetlands,” raised similar concerns. It pointed out that in

the process of selecting sample tracts for review, NRCS disproportionately emphasizes

tracts (e.g., permanent rangelands) where the conservation compliance provisions may

not be applicable. Since these tracts provide little potential for noncompliance, the status

reviews that include them result in inflated compliance rates. GAO reported that for crop

years 2000 and 2001, only 5 percent of all tracts selected for compliance review resulted

in waivers or violations. And of those tracts with violations, over 60 percent of these

cases from 1993 through 2001 were waived when the farmers appealed their cases to

FSA. For FY 2004, we plan to evaluate NRCS’ compliance rates by verifying, through a

statistical sample of tracts, that conservation provisions have been properly implemented.



RMA Data Acceptance System

Crop insurance program benefits are based on information provided by the producers to

the insurance companies. The insurance companies enter the data into their information

technology (IT) systems and then download it to RMA, where the data purportedly first

undergo a series of IT edit checks or validations to ensure the data are complete and

accurate. Once the data are cleared through this electronic information processing




                                             28
application, known as the Data Acceptance System (DAS), RMA’s crop insurance

database is updated.



For the 2001 crop year, we found RMA did not have documentation to describe all

current DAS edits, users, and reports. We were unable to determine the internal controls

in place to evaluate the quality of data downloaded to RMA from the insurance

companies. Further, we discovered any updated or changed data overwrites and

completely replaces any corresponding pre-existing data in RMA’s crop insurance

database. Thus, the audit trail or history of changes is effectively eliminated. Finally, the

crop insurance database and RMA’s accounting system do not interface with one another.

Instead, RMA uses the database values at monthly cutoff dates to generate a monthly

accounting report for each insurance company. These reports are sent to the companies

for review and attestation and are ultimately signed and returned to RMA. RMA

manually compares the current month’s cumulative amounts to the prior month’s

cumulative amounts for each insurance company, and RMA accountants enter the

calculated differences into the automated accounting system to make payments to or

demand refunds from the individual insurance companies. RMA’s current system makes

it impossible to verify financial events at the transaction level and does not comply with

Federal financial management and financial systems requirements. Our report on “Risk

Management Agency Survey of Data Acceptance System Processing Controls” is

scheduled to be issued in September 2003. We plan to do additional reviews of DAS,

particularly testing the validity of the data including any changes to the database.




                                             29
Common Computing Environment and Geographic Information Systems

The Department of Agriculture Reorganization Act of 1994 authorized the reorganization

and modernization of USDA to achieve greater efficiency, effectiveness, and economy in

program delivery. One major component of this effort targeted USDA’s county-based

agencies (FSA, the Natural Resources Conservation Service (NRCS), and the agencies in

the Rural Development mission area). A key element under USDA’s modernization

initiative is the development of a common computing environment (CCE) to enable the

county-based agencies to share data among themselves. USDA began implementation of

the CCE in 1998 and plans to complete its installation in FY 2004.



Another component of the modernization initiative is implementation of Geographic

Information Systems (GIS) and Global Positioning Systems (GPS) technology. GIS and

GPS will allow the county-based agencies, and other USDA agencies, to electronically

analyze data on land and crops. GIS is a computer-based tool for mapping and analyzing

geographic information. GPS is an accompanying technology that can be integrated with

GIS for even greater analysis of real world information. GPS data layers, ortho-

photography, soils layers, public land survey data, and many other data layers can be

placed atop one another inside of one GIS project. FSA plans to use the geo-spatial data

and tools to improve assessment of crop conditions and producer compliance with FSA

programs, as well as to maintain and share farm records and maps digitally with other

agencies as appropriate. Based on our discussions with RMA compliance staff, such geo-

spatial data and tools have allowed them to closely and timely monitor crop conditions




                                           30
and producer compliance, particularly in situations where they have received complaints

or their reviews indicate potential problems.



In our investigations, we have benefited from this modern technology by utilizing

satellite imagery technology for crop identification and comparison during growing

seasons. Specifically, thermal image technology has been used to determine acreage

amount and whether or not a crop was planted, as well as the type of crop planted.

Although this technology can be extremely useful in our audits and investigations,

upfront costs, to include personnel expertise and training, are unknown at this time.



Penalties

RMA and FSA distinguish between participant errors and agency errors in the programs.

In cases of participant error, RMA and FSA generally demand refunds of overpayments,

but greater leniency is afforded in cases of agency error, including cases of misaction or

misinformation. Further, there are legislated disparities in RMA’s and FSA’s handling of

agency errors. For example, FSA’s Finality Rule waives repayment after 90 days unless

the participant had reason to know the payment was made in error. If the participant is

not notified within 90 days of the county committee’s approval of the request that a

potential overpayment may have occurred, FSA is precluded from recovering

overpayments resulting from agency errors. Since recovery is moot, a reviewer is

discouraged from actively seeking and identifying overpayments that could be the result

of agency waste. In our August 2002 report, “FSA – Limited California Cooperative

Insolvency Payment Program – Tri Valley Growers,” we found agency errors in




                                            31
approximately 20 percent of the program payments. Early on in the review, we raised

these concerns to FSA who, in turn, notified participants of the potential payment

problems. Fortunately, because of these notifications, FSA was able to issue bills of

collections to recover these overpayments.



In contrast, ARPA provides a 3-year period for the recovery of improper payments

attributed to an insurance company’s error. To adequately enforce program compliance

and integrity, remedies should be consistent across agency lines and for similar

violations.

                                     SUMMATION



You have asked us here today to talk about our experiences in auditing and investigating

fraud, waste, and abuse within USDA mandatory programs. In each of the mandatory

spending programs I have discussed here today, much has been done by the USDA

agencies and Congress to address inherent weaknesses and vulnerabilities within USDA’s

programs.



In regards to the Food Stamp Program, FNS has a long history of identifying erroneous

payments, as well as working with State Administering agencies to lower error rates.

What impact the recent legislative reforms will have on FNS’ ability to continue to effect

positive changes in State error rates will not be known for some time. We will continue

to monitor this process. Also, both FNS and State Administering Agencies need to

remain focused on using data available from EBT systems to target problem retailers and




                                             32
ensure program integrity. The eligibility issues in the National School Lunch and

Breakfast Programs are more complicated and we would encourage the Congress to work

with FNS to find a solution that will minimize erroneous payments and yet not deter

those eligible from receiving program benefits.



We believe the recent legislative initiatives for the farm and crop insurance programs, if

effectively implemented, should have a positive impact on program administration and

integrity. Key to effective implementation of this legislation is the development of

common data reporting requirements (i.e., definitions for common pieces of land), which

will facilitate more effective data reconciliation and data mining to detect improper

payments.



Overall, I see the Department’s challenge in implementing the 2002 Improper Payments

Information Act as a critical action item in the identification and prevention of erroneous

payments. For USDA to be successful in reducing erroneous payments in its spectrum

of programs, there must be management commitment, inter-and intra-agency

coordination, adequate information systems and quality control processes, and effective

enforcement actions. Each of these areas is an interrelated element of an effective and

efficient internal control system to reduce fraud, waste, and abuse.



Commitment is the driving force of any system of internal controls: management (and

Congress) must be willing to commit the necessary resources to the task of preventing

and detecting errors and irregularities. Internal controls should not be secondary




                                            33
considerations or collateral duties. Program compliance and integrity must be impressed

throughout the cultural climate as an integral part of program delivery.



In the last decade, Congress has done much to mandate and encourage a coordinated

Departmental approach to program delivery. To create a seamless interagency team

approach to program integrity, the Department must encourage individual agencies and

employees to work across organizational lines to share information and coordinate

compliance and data mining activities which may affect multiple programs, both inter-

and intra-agency.



Integrated and collaborative information technology should also be a fundamental part of

the Department’s efforts to improve program compliance and integrity. Information

technology is a means to pool the Department’s limited resources to compare data

throughout the Department and to identify and target anomalies for further analysis.



Finally, a system of internal controls does nothing to discourage or deter fraud, waste,

and abuse unless participants and USDA employees are held accountable for errors and

irregularities. The Department must work to ensure penalties are consistently and fully

enforced across agency lines. We will continue working with the Department and its

agencies to strengthen their programs and to identify areas where cost avoidance and

savings can be achieved. This concludes my statement, Mr. Chairman. I would be happy

to answer any questions that you may have.




                                             34
                        UNITED STATES DEPARTMENT OF AGRICULTURE



                                                                      2003 BUDGET
MANDATORY PROGRAMS                                                (Dollars in Millions)

Cooperative Research, Education, and Extension Service
Initiative for future agricultural and food systems                                  0

Animal and Plant Health Inspection Service
 Agricultural quarantine inspection                                               152

Agricultural Marketing Service
 Grading activities                                                               120
 Section 32                                                                     1,213
 Perishable agricultural commodities activities                                     8
 Marketing agreements and orders                                                   15

Natural Resources Conservation Service
Watershed rehabilitation program                                                    0
Wetlands reserve program                                                          273
Conservation security program                                                       4
Farmland protection program                                                        72
Grassland reserve program                                                          70
Environmental quality incentives program                                          599
Ground and surface water conservation program                                      54
Wildlife habitat incentives program                                                21
Biomass research and development                                                   14

Farm Service Agency
 Conservation reserve program                                                   1,883
 Dairy indemnity program                                                            0

Commodity Credit Corporation                                                   18,749
Direct payments
Counter-cyclical payments
Nonrecourse marketing assistance loans
Loan deficiency payments
Payment in lieu of deficiency payments for grazed acreage
Peanut programs
Milk price support programs
National dairy market loss payments
Sugar program
Sugar storage facility loan program
Noninsured crop assistance program
Disposal of surplus commodities


                                                  35
                       UNITED STATES DEPARTMENT OF AGRICULTURE



                                                                     2003 BUDGET
MANDATORY PROGRAMS                                               (Dollars in Millions)

Bioenergy program
Disaster related activities:
 Assistance for livestock producers
 Market loss assistance for apple producers
 Market loss assistance for onion producers
 Commercial fisheries failure
 Tree assistance program



Risk Management Agency
Crop insurance program                                                         3,082

Foreign Agricultural Service
 Export credit guarantees                                                      4,225
  Short-term guarantees (GSM-102)
  Intermediate-term guarantees (GSM-103)
  Supplier credit guarantees
  Facilities financing guarantees
 Market development programs
  Market access program                                                          110
  Foreign market development cooperator program                                   35
  Technical assistance for specialty crops program                                 2
 Export subsidy programs
  Export enhancement program                                                       28
  Dairy export incentive program                                                   36
 Bill Emerson humanitarian trust
 International food for education program                                        100

Rural Development
Rural community advancement program                                                 0
National Sheep Industry Improvement Center                                          1
Rural strategic investment program                                                  0

Rural Housing Service
Rural firefighters and emergency personnel grant program                            0

Rural Utilities Service
Rural broadband access                                                             20

Rural Business-Cooperative Service
Value-added agricultural product market development grants                         40
Renewable energy systems and energy efficiency improvements                        23



                                              36
                       UNITED STATES DEPARTMENT OF AGRICULTURE



                                                                     2003 BUDGET
MANDATORY PROGRAMS                                               (Dollars in Millions)

Rural business investment program                                                   0

Food and Nutrition Service
 Food stamp program                                                           26,233
  Employment and training program
 Consolidated block grant for Puerto Rico and American Samoa
 Food distribution on Indian reservations
 Community food projects
 Child nutrition programs                                                     10,573
  School lunch program
  School breakfast program
  Child and adult care food program
  Summer food service program
  State administrative expenses
  Nutrition education and training
  Special milk program
 WIC farmers' market program                                                        0
 Senior farmers market program                                                     15

Forest Service
 Forest land enhancement program                                                   20

Departmental direction and administration
Biodiesel fuel education program                                                    2

Total Mandatory Programs                                                      67,792

USDA Total Program Level (2003 Estimate)                                    106,694




USDA Mandatory Programs as a Percent of USDA Total Programs                  63.54%




                                            37
